CERTIFICATE OF SERVICE
NO. 20-1199
Students for Fair Admissions, Inc.
Petitioner,
v.
President and Fellows of Harvard College
Respondent.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
OKLAHOMA AND THIRTEEN OTHER STATES AMICUS AT PETITION STAGE IN SUPPORT OF PETITIONER,
by mailing three (3) true and correct copies of the same by Fedex 2-Day, prepaid for delivery to the
following addresses.
William Spencer Consovoy
Consovoy McCarthy PLLC
1600 Wilson Boulevard
Suite 700
Arlington, VA 22209
(703) 243-9423
will@consovoymccarthy.com
Counsel for Students for Fair Admissions, Inc.

Seth P. Waxman
Wilmer Cutler Pickering Hale and Dorr LLP
1875 Pennsylvania Ave, NW
Washington, DC 20006
(202) 663-6800
Seth.Waxman@wilmerhale.com
Counsel for President and Fellows
of Harvard College

Lucas DeDeus

March 31, 2021
SCP Tracking: Mansinghani-313 NE Twenty-First Street-Cover Cream

